HHS/OIG-Audit-"Community Action Agency of Somerville, Inc. Review of HeadStart Costs for the Period 12/1/94 through 6/30/96"(A-01-96-02504)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Community Action Agency of Somerville, Inc. Review of Head Start Costs for the Period December 1, 1994 through
June 30, 1996" (A-01-96-02504)
October 28, 1996
Complete
Text of Report is available in PDF format (39.7 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We reviewed the Community Action Agency of Somerville, Inc. (CAAS), Somerville, Massachusetts. The objective of our review
was to determine the appropriateness and allowability of costs charged to Head Start grants for the period December 1,
1994 through June 30, 1996.
Based on the results of our review of financial information, attendance reports, Board of Directors meetings, Policy Council
meetings, supporting documentation, and reports prepared by independent auditors, we identified no unallowable nor inappropriate
costs. Accordingly, we are not recommending any financial adjustments.